                                 CLOSEOUT FOR M98090025




seven lines of background material from a published article.?

        OIG examined the proposal and the article. We determined that the subject referred to
the article at the end of the first sentence he took from it, but did not indicate that that sentence
and approximately five lines of text that followed it were taken nearly verbatim from the
article. There was no evidence of additional inadequately attributed copying from that article.
OIG concluded that the amount of material that the subject used without proper attribution, the
background function of this material in the subject's proposal, and the inclusion of a citation to
the article, taken together, made this matter insufficiently serious to be misconduct in science.

        OIG contacted the subject. We informed him of our conclusion that what he had done
was not sufficiently serious to be misconduct in science. We explained to him that NSF
"expects strict adherence to the rules of proper scholarship and attribution" (Grant Proposal
Guide, NSF 99-2, page 1) and discussed with him how he could have complied with those
rules in this instance. We noted that NSF has made fmdings of misconduct in science against
scientists who have done somewhat more extensive unattributed or improperly attributed
copying from the work of others and urged him to familiarize himself thoroughly with the
standards of proper scholarly attribution.

       This inquiry is closed and no further action will be taken on this case.




                                       page 1 of 1                                M98-25
